                               REVIEW OF NCES’s YEAR 2000
                                          READINESS PLANS


                                          FINAL AUDIT REPORT




                                Audit Control Number ED-OIG/A11-90014
                                             November 1999




Our mission is to promote the efficient                          U.S. Department of Education
and effective use of taxpayer dollars                                 Office of Inspector General
in support of American education                                    Washington DC Field Office
                                   NOTICE

Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the
Office of Inspector General. Determination of corrective action to be taken will
be made by appropriate Department of Education officials.

In accordance with the Freedom of Information Act (U.S.C. § 552), reports
issued by the Office of Inspector General are available, if requested, to members
of the press and general public to the extent information contained therein is not
subject to exemptions in the Act.
                            TABLE OF CONTENTS


Executive Summary… … … … … … … … … … … … … … … … … … … … … … … … … 1


Audit Results… … … … … … … … … … … … … … … … … … … … … … … … … … … … 4

     NCES Recently Assessed the Effects of Potential Y2K Failures on its
     Core Business Processes… … … … … … … … … … … … … … … … … … … … … … … … … … ..4

     NCES Recently Updated and Validated its Hardware and Software Inventory… … … … … ..6

     NCES is Participating in ED's Y2K Readiness Assessment Survey of Contractors … … ...… 9

     NCES Recently Completed Contingency Plans for its Seven Core Business
     Processes… … … … … … … … … … … … … … … … … … … … … … … … … … … … … … … … 10

     The Project Team Needs to Assess Department-wide Effects of Y2K Issues
     Identified at NCES… … … … … … … … … … … … … … … … … … … … … … … … … … … … .12


Background… … … … … … … … … … … … … … … … … … … … … … … … … … … … 13


Objective, Scope and Methodology… … … … … … … … … … … … … … … … … … ..15


Statement on Management Controls… … … … … … … … … … … … … … … … ...… 16


Appendix A: NCES's Management Comments… … … … … … … … … … … … … 17


Appendix B: Project Team's Response… … … … … … … … … … … … … … … … ..25
Review of NCES’s Year 2000 Readiness Plan    Final Report                          ED-OIG/A11-90014




                            EXECUTIVE SUMMARY
As part of the U.S. Department of Education’s (ED) Office of Educational Research and
Improvement (OERI), the National Center for Educational Statistics (NCES), is the primary Federal
agency responsible for the collection, analysis and reporting of data related to education in the
United States. To fulfill its responsibilities, NCES has created a series of databases on a wide
variety of topics at the national, state, and local levels addressing elementary and secondary, and
postsecondary education.

We reviewed NCES’s Year 2000 (Y2K) Readiness Plans to assess the adequacy of its preparations.
NCES systems are classified as mission supportive in ED’s Y2K project. This report is the Office
of Inspector General’s (OIG) first review of the Y2K readiness of one of ED’s mission supportive
systems.

To date, we have focused our attention on the status of ED’s mission critical systems. The ED Y2K
Project Team (Project Team) conducted an initial assessment and prioritized the individual systems
and devices as mission critical, mission important and mission supportive. During the past year,
OIG has completed Y2K–related work in the areas of student financial assistance and guaranty
agencies, for example. In July 1999, we issued Management Information Report, “Review of Year
2000 Compliance for Processing, Delivery and Administration of Student Financial Assistance
Programs (Control Number S11-90016).” The purpose of our July report was to assess the status of
13 systems critical to the delivery of student financial assistance (SFA). Given their classification
as mission supportive, NCES’s systems have been determined to be lower risk to ED’s mission than
the systems we have previously reported upon.

At the time of our review, we identified areas that needed improvement. Since the issuance of our
August 1999 draft report, NCES has initiated corrective action in each of the finding areas
discussed below.

NCES Recently Assessed the Effects of Potential Y2K Failures on its Core Business Processes.

In our draft report we recommended that NCES determine how potential Y2K failures could affect
its core business processes. We believe that NCES’s ability to carry out its mission could be
affected by failures of its systems or those of its contractors or data sources. In response to our
recommendations in the draft report, NCES identified seven core business processes, and developed
Y2K assessments and contingency plans.


NCES Recently Updated and Validated its Hardware and Software Inventory.

In our draft report, we recommended that NCES complete and validate its hardware and software
inventory. In response to our draft report, NCES has completed a software inventory, a server
assessment and ensured the Y2K compliance of its historical databases. We believe NCES still
needs to work with the Project Team to ensure that its hardware and software inventory are

                                                   1
Review of NCES’s Year 2000 Readiness Plan    Final Report                          ED-OIG/A11-90014



complete and that all vendor certifications have been obtained. An incomplete inventory and
validation of hardware and software could result in a Y2K failure affecting NCES operations.

NCES is Participating in ED’s Y2K Readiness Assessment Survey of Contractors.

In April 1999, we visited two major NCES contractors and noted that one was still in the renovation
phase of its Y2K project. In August 1999, we were informed that this contractor had made progress
and planned to complete implementation by September 1999. The other major contractor we
visited had reported significant progress earlier, but also planned to perform testing and
implementation through September 1999. A contractor Y2K failure could delay the production of
NCES reports and surveys, some of which are congressionally mandated. In response to our draft
report, NCES took action and has obtained documentation to assess the Y2K status of its
contractors. NCES is currently updating information on the Y2K status of the contractors
mentioned above. This assessment is being completed in conjunction with the Project Team and
Contracts and Purchasing Operations. Based upon this action we recommend that NCES continue
to work with the Project Team and Contracts and Purchasing Operations to monitor its contractors
and external data sources.

NCES Recently Completed Contingency Plans for its Seven Core Business Processes.

In response to our draft report, NCES took action to identify its seven core business processes and
develop contingency plans for each area. We recommend that NCES submit these plans to the
Project Team for review.

The Project Team Needs to Assess Department-wide Effects of Y2K Issues Identified at
NCES.

Although our work was limited to NCES, we believe that the issues we identified could be
applicable to other ED offices. This is because the Project Team requested that progress be tracked
by system, rather than by core business process. Other ED offices may also have business
processes that involve software and hardware that are not directly linked to any of the systems ED
has inventoried and tracked for Y2K compliance. For example, the NCES contractor who planned
to complete implementation by September 1999, holds approximately $70 million in contracts with
other ED offices. In response to our draft report, the Project Team stated that it is currently
working with individual ED offices to determine if Y2K issues identified in the draft report are
applicable. The Project Team is also seeking progress reports from ED’s critical contractors.

Recommendations:
To address the above issues and reduce the risk of a Y2K failure, we recommend that the NCES
Commissioner and Y2K liaisons:


Ø submit NCES core business process assessments and Y2K contingency plans to the Project
  Team and continue to work with the Project Team to identify potential Y2K failures.



                                                   2
Review of NCES’s Year 2000 Readiness Plan      Final Report                           ED-OIG/A11-90014



Ø work with the Project Team to ensure that NCES has completed and validated its hardware and
     software inventory, identified all of its administrative systems and assessed the readiness of its
     contractors and external data sources.

We also recommend that the Project Team Director:

Ø work with ED Y2K liaisons to determine if the NCES findings are applicable to other ED
  offices.

Ø provide guidance to ED offices regarding the appropriate action to take to resolve identified
  issues.




                                                     3
Review of NCES’s Year 2000 Readiness Plan      Final Report                         ED-OIG/A11-90014




                                        AUDIT RESULTS
At the time of our review, we identified areas that needed improvement in NCES’s Y2K readiness
plans. We reached this conclusion based upon our reviews of NCES contractors, contingency
plans, hardware and software inventories, and our interviews of NCES staff. In response to our
August 1999 draft report, NCES took corrective actions, which are noted in the findings below. As
a result, we have changed our recommendations from the draft report to reflect action taken.
NCES’s complete response to our draft report is included in Appendix A and the Project Team’s
complete response is included in Appendix B.


Finding No. 1                 NCES Recently Assessed the Effects of Potential Y2K
                              Failures on its Core Business Processes.

Our draft report stated that NCES needed to assess the effects of potential Y2K failures on its core
business processes. In response to the draft report, NCES took steps to further assess the effects of
potential failures. We have changed our recommendations to reflect action taken. The results of
our audit and NCES subsequent actions are presented below.

Our audit found that NCES needed to perform a comprehensive assessment of potential Y2K
failures and their effects on its operations. Without performing such an assessment, NCES would
be unable to ensure that it had adequately prepared for Y2K. NCES needed to identify and mitigate
Y2K risks that affected its core business processes. These processes include the collection, analysis
and reporting of data on elementary, secondary and postsecondary education. These core business
processes could be disrupted unless NCES addressed Y2K issues. For example, NCES would be
unable to:

• publish congressionally mandated reports like the National Assessment of Educational Progress
  and the Condition of Education Report;

• calculate the Title I allocation prepared for ED’s budget; and

• produce data supporting ED’s reporting of performance indicators for compliance with the
  Government Performance and Results Act.

NCES management and staff stated that Y2K would not affect operations because its products are
not “date sensitive.” NCES stated that it was already positioned as Y2K compliant, because it did
not have systems that use year values in computations. This belief demonstrated that NCES needed
to develop a complete awareness of all aspects of the Y2K issue and the potential failures that could
occur. For example, NCES needed to assess the risks that hardware failures or Y2K-related failures
at its contractors or data sources might affect its ability to perform its mission.

                                                     4
Review of NCES’s Year 2000 Readiness Plan    Final Report                         ED-OIG/A11-90014




In “Year 2000 Computing Crisis: An Assessment Guide [GAO/AIMD-10.1.14],” GAO
recommended that agencies assess the severity of potential Y2K failures for each core business
process. However, ED’s Y2K Project Management Plan required ED offices to report progress by
system rather than by business process. Assessing Y2K risks by system does not promote the
consideration of the risks related to business processes not directly linked and integrated into an
existing IT system.

In our draft report, we recommended that NCES identify core business processes and assess the
effect of potential Y2K failures with input from the NCES associate commissioners and managers.
In addition, we recommended that NCES establish an awareness program with the associate
commissioners and other management to ensure they have an understanding of the Y2K issue and
its potential effect on operations.

NCES Response

In response to our draft report, NCES identified seven core business processes and developed Y2K
contingency plans. These plans included an assessment of the effect of potential failures. To
address our awareness concerns, NCES associate commissioners and other NCES managers were
involved in the development of contingency plans, the identification of the seven core business
processes and Y2K failure assessments.

OIG Analysis

NCES has taken the appropriate action in response to our draft report recommendations. However,
to be consistent with action taken by other ED offices, we recommend that they submit their
contingency plans and Y2K assessments to the Project Team for review.



Recommendations:
We recommend that the NCES Commissioner and Y2K liaisons:

1.   Submit core business process assessments to the Project Team and continue to work with the
     team to identify potential NCES Y2K failures.




                                                   5
Review of NCES’s Year 2000 Readiness Plan         Final Report                          ED-OIG/A11-90014




Finding No. 2                 NCES Recently Updated and Validated its Hardware and
                              Software Inventory.


Our draft report stated that NCES needed to complete and validate its hardware and software
inventory. In response to the draft report, NCES took steps to update and validate its hardware and
software inventory. We have changed our recommendations to reflect action taken. The results of
our audit and NCES subsequent actions are presented below.

Our audit found that NCES needed to ensure that it had a complete hardware and software
inventory and that all items inventoried were validated and verified for Y2K compliance. We found
that NCES was tracking progress on only one of four systems originally identified for the Y2K
project. NCES stated that responsibility for the remaining three systems had been transferred to
other ED offices. We were unable to verify that Y2K issues related to these systems were being
addressed. Additionally, we found that NCES needed to complete its inventory of other hardware
and software and take steps to ensure that they are Y2K compliant.

NCES had Not Tracked Progress on Three Identified Systems

ED’s Y2K Project Management Plan requested each ED office to identify its systems and provide
information about each system using a common information template. NCES originally identified
and completed templates for the following four systems:


System                                      Description
Major Data Collections                      Project management, data editing, imputations,
                                            documentation and a host of other activities associated with
                                            national administrative and sample surveys.
Maintenance of Historical                   Maintenance of about 500 historical data files in a variety of
Databases                                   electronic formats, including computer tapes, diskettes and
                                            CD-ROM products.
Administrative Systems                      Internal recordkeeping/administrative systems, including
                                            NCES internal budget planning and monitoring tools.
Desktop Software and Computing              Desktop computing through Windows 95, the Statistical
                                            Analysis System (SAS) and the Statistical Package for Social
                                            Sciences (SPSS).


NCES officials stated that responsibility for three of the four systems were transferred to other ED
offices, including the Office of Postsecondary Education (OPE), Office of Chief Financial Officer
(OCFO), and Office of Chief Information Officer (OCIO). ED’s current Y2K systems inventory
no longer reported these systems separately under any ED office. We could not find evidence that
the NCES compliance issues were being tracked through these other offices. We noted the
following issues for two of the three systems originally identified by NCES:


                                                        6
Review of NCES’s Year 2000 Readiness Plan     Final Report                          ED-OIG/A11-90014


• Maintenance of Historical Databases: In its system template, NCES identified Y2K issues
  for the historical databases that needed to be addressed. Additionally, NCES informed us that it
  now maintains a contract with the Inter-University Consortium Political and Social Research
  (ICPSR) at the University of Michigan for archiving, researching data anomalies and making
  the files available to researchers. NCES needed to take steps to ensure that ICPSR was Y2K
  compliant and that the current maintenance of the historical databases was not affected by Y2K
  issues.

• Administrative Systems: In its administrative systems template, NCES stated that it
  maintained a number of internal recordkeeping/administrative systems like its budget planning
  and monitoring tools. NCES expected some of these systems to be replaced by Y2K compliant
  modules of Education’s Central Automated Processing System (EDCAPS). NCES needed to
  document the systems that were replaced by EDCAPS. In addition, NCES needed to document
  the systems not being replaced by EDCAPS so it can track their Y2K compliance.

Hardware and Software Inventory Incomplete

During our review, NCES provided OIG with an inventory of its hardware and software. This
inventory was not complete and not all items included on the inventory had been validated as Y2K
compliant. Without a complete inventory, NCES could not ensure that all items were Y2K
compliant. Noncompliant items could cause failures affecting NCES operations.

NCES needed to take steps to validate its software products. We identified several products in use
at NCES that were not included in OCIO’s current Product Support Plan. At least one software
item, a program written in Fortran for Title I Allocations, could have been affected by the Y2K
problem.

NCES needed to take steps to validate NCES servers and personal computers. We found that seven
of NCES’s eight servers were not connected to ED’s network (EDNET) and therefore were not
included in OCIO’s validation efforts for EDNET. NCES officials stated that Y2K readiness was
not an issue because they replace a third of their personal computers every year. Y2K experts have
cautioned that non-Y2K ready products have been sold within the past year and that the compliance
of all hardware and software should be established. At the time of our review, we learned that
OCIO was planning to use a software audit tool to test for potential Y2K problems. The tool is
designed to sample a cross section of servers connected to EDNET and identify what Y2K software
updates and patches are needed. Since the majority of NCES servers were not connected to
EDNET, they were not covered by the OCIO test plan.

Through its Y2K inventory process, ED maintained technical information such as hardware
platform, criticality, type of technology, software release level, application name, and application
identification for all mission critical, important and supportive systems. Each ED office is
responsible for ensuring the successful assessment, renovation and validation of its systems,
including, software applications, local area networks, wide area networks, hardware, embedded
technology devices and facility infrastructure.

In our draft report, we recommended that NCES identify Y2K issues related to maintenance of
historical databases, administrative systems and desktop software and computing and ensure that
                                                    7
Review of NCES’s Year 2000 Readiness Plan     Final Report                       ED-OIG/A11-90014


these issues are resolved. In addition, we recommended that NCES develop a complete inventory
of hardware and software it uses and ensure that all items are validated for Y2K compliance.

NCES Response

In response to our draft report, NCES provided a historical perspective on its systems initially
identified for the Y2K project. To ensure that Y2K issues are resolved for historical databases,
NCES contacted the ICPSR and obtained assurance that they are Y2K compliant. For desktop
software and computing, NCES completed an inventory of its software purchases and has provided
Y2K certifications. For administrative systems, NCES stated that NCES no longer has separate
administrative systems.


OIG Analysis

NCES has taken appropriate steps in response to our draft report by contacting ICPSR to assess
Y2K compliance and resolving issues related to desktop software and computing. However, OIG
continues to recommend that NCES further verify that administrative systems will not be affected
by a Y2K failure. During our audit, under the administrative systems Y2K template, we identified
an internal budget planning and monitoring system. NCES still needs to determine if this system
has been retired or if there are still Y2K issues that require resolution. NCES will also need to
continue to monitor these areas in preparation for the Year 2000.




Recommendations:

We recommend that the NCES Commissioner and Y2K liaisons:

1. Work with the Project Team to ensure that it has completed and validated its hardware and
   software inventory, including the identification of all administrative systems.




Finding No. 3                 NCES is Participating in ED’s Y2K Readiness Assessment of
                              Contractors.

                                                    8
Review of NCES’s Year 2000 Readiness Plan    Final Report                           ED-OIG/A11-90014


Our draft report stated that NCES needed to assess the readiness of its contractors and external data
sources. In response to the draft report, NCES took steps to further assess the readiness of its
contractors and external data sources. NCES is currently participating in a contractor readiness
assessment in conjunction with the Project Team and Contracts and Purchasing Operations. We
have changed our recommendations to reflect action taken. The results of our audit and NCES
subsequent actions are presented below.

Our audit found that NCES relied extensively on contractors for the majority of its surveys and
reports. While NCES had ensured that its contracts included ED’s standard Y2K clause, it still
needed to take steps to actively monitor the readiness of the majority of contractors upon which it
relied to complete its mission. Additionally, because NCES relied extensively on so many outside
sources for data, it needed to take steps to ensure that its data sources would be able to provide
critical data in the Year 2000.

NCES officials stated that a contractor failure would not affect NCES because their contractors do
not provide “systems,” just files. The GAO assessment guide states that during the assessment
phase, entities should “address interface and data exchange issues, including: … the validation
process for incoming external data.” NCES officials stated that they were requested by the Project
Team to contact their two largest contractors to assess their Y2K compliance. Those contractors
were contacted and NCES received compliance certifications.

We conducted on-site visits at two additional NCES contractors in April 1999. At that time, we
found that one of the two contractors was still in the assessment and renovation phases. Through a
follow-up contact in August 1999, we were informed that the contractor had made progress and was
presently performing some tests in the validation and implementation phases. The contractor’s
plans called for completion of its Y2K efforts by September 1999. This contractor informed us that
it was following the Y2K guidelines that were applicable to the Federal Government. The other
major contractor we visited had reported significant progress earlier, but also planned to complete
implementation by September 1999. However, OMB guidelines required Federal agencies to
complete their Y2K renovation work by January 1999, and have all systems validated and
implemented by March 31, 1999.

Additional efforts to ascertain the readiness of other NCES contractors and outside data sources
appeared warranted. NCES planned to contact its contractors on the first work day of year 2000 to
assess the status of their systems. However, we believe that communication with contractors
should occur earlier to alert NCES to potential failures. Systems failures at these contractors could
prevent them from compiling, analyzing and reporting on important educational survey data.

We also found that NCES needed to assess how failures at survey data providers might affect their
ability to effectively participate in NCES surveys. NCES officials had indicated that NCES surveys
should not be affected by the Y2K issue. Although the surveys are completed on paper, it is likely
that the information will be extracted from the survey participant’s systems. A Y2K-related failure
could prevent survey participants from responding, or could affect the quality of data that they
submit. NCES needed to take steps to understand the potential effects these failures could have on
its ability to publish its reports.



                                                   9
Review of NCES’s Year 2000 Readiness Plan      Final Report                          ED-OIG/A11-90014


In our draft report, we recommended that NCES assess the readiness status of key contractors,
assess potential effects of contractor failures on NCES operations and develop resolution plans for
contractors not making adequate progress in addressing Y2K issues. In addition, we recommended
that NCES determine what key contractors have done to assess the Y2K status of their survey data
sources. NCES contractors should have plans in place to determine how they will identify
erroneous and incomplete data, and what they will do if a Y2K failure affects their ability to
receive, analyze or transmit data through their normal processes.

NCES Response

NCES has already taken action in response to our draft report. NCES is currently updating
information on the Y2K status of the contractors visited by the OIG, and its other major contractors.
This assessment is being completed in conjunction with the Project Team and Contracts and
Purchasing Operations. In addition, NCES has included steps in its contingency plans for
addressing Y2K failures at contractors external data sources.

OIG Analysis

NCES has taken appropriate steps in response to our recommendations. We continue to
recommend that NCES work with the Project Team to monitor its contractors and external data
sources.



Recommendations:

We recommend that the NCES Commissioner and Y2K liaisons:

1. Continue to work with the Project Team and Contracts and Purchasing Operations to assess the
     readiness of its contractors and external data sources.


Finding No. 4                 NCES Recently Completed Contingency Plans for its Seven
                              Core Business Processes.

Our August 1999 draft report stated that NCES needed to further develop its Y2K contingency
plans. In response to our draft report, NCES developed Y2K contingency plans for its seven core
business processes. We have changed our recommendations to reflect action taken by NCES. The
results of our audit and NCES subsequent actions are presented below.

NCES had prepared a contingency plan for Major Data Collections. The plan stated that NCES
would contact its contractors on the first workday of the Year 2000 to assess the status of their
survey systems. If a failure is identified, the only alternative process was to require the contractor
to reset the system clock to a date before January 1, 2000 and continue processing surveys. We
believed that alternatives were needed to mitigate failures at contractors. Additionally, the NCES

                                                    10
Review of NCES’s Year 2000 Readiness Plan     Final Report                          ED-OIG/A11-90014


contingency plan did not address other potential risks and their alternative processes. For example,
the plan:

• did not include all of the applicable surveys and reports produced by NCES, such as the
  Condition of Education report or the Title I Assessment process;

• did not provide alternative plans in the event that external sources cannot provide data or
  provide erroneous data; and

• did not address the effect of and cost applicable to a potential failure.

Since the NCES contingency plan did not include sufficient information, NCES may not have been
in a position to mitigate potential failures effectively.

ED’s Y2K Project Management Plan requires principal offices to prepare contingency plans for all
non-mission critical systems that:

•    provides a brief description of system functions, transaction volume, and perceived risk;
•    describes alternative process(es);
•    estimates costs of alternative process(es); and
•    addresses data exchanges associated with the systems.

In our draft report, we recommended that NCES further develop their Y2K contingency plans to
address its specific business continuity needs. The plans should address each critical core business
process and include steps to minimize the impact of failures at contractors and at state agencies.

NCES Response

NCES has taken action on our recommendations by creating Y2K contingency plans for its seven
core business areas that were identified as a result of our recommendation for finding number one.

OIG Analysis

NCES has taken the appropriate action to address OIG’s recommendation and should submit the
new contingency plans to the Project Team for review.




                                                   11
Review of NCES’s Year 2000 Readiness Plan     Final Report                        ED-OIG/A11-90014


Recommendations:
We recommend that the NCES Commissioner and Y2K liaisons:

1. Submit Y2K contingency plans for its seven core business processes to the Project Team for
   review.


Finding No. 5                 The Project Team Needs to Assess Department-wide Effects
                              of Y2K Issues Identified at NCES.

While the scope of our review was limited to NCES, the issues identified in the findings above
could affect other ED offices. For example, one of the NCES contractors who informed us it
planned to complete Y2K implementation by September 1999 holds approximately $70 million in
contracts with ED offices other than NCES. Other ED offices may need to increase their awareness
of how Y2K could affect their operations and take steps to:

• assess the Y2K risks of business processes that involve software and hardware not directly
  linked to any of the systems ED has inventoried and tracked for Y2K compliance;
• evaluate the readiness of contractors and external data sources not addressed as part of mission
  critical, mission important and mission supportive systems; and
• develop more detailed contingency plans to address their specific business continuity needs.

NCES and Project Team Response

The Project Team and its management consultant partner are working with individual ED offices to
determine the extent to which issues identified in OIG’s report apply to other offices, and to help
address issues identified. In addition, ED is seeking progress reports from all of its contractors.
Information from this effort will be used to focus and improve contingency plans for individual
business processes across all ED offices. NCES responded that it has taken action to work with the
Project Team.

OIG Analysis

The Project Team and NCES have taken the appropriate steps in response to our recommendations.
We continue to recommend that NCES and the Project Team continue to work together to monitor
issues identified in this report.




                                                   12
Review of NCES’s Year 2000 Readiness Plan      Final Report                         ED-OIG/A11-90014




Recommendations:

We recommend that the Project Team Director:

1. Work with the ED Y2K liaisons to determine if the NCES findings are applicable to other ED
   offices.

2.   Provide guidance to ED offices regarding the appropriate action to take to resolve identified
     issues.



                                            BACKGROUND

We reviewed NCES’s Year 2000 Readiness Plans to assess the adequacy of NCES’s preparations
for Y2K. NCES systems are classified as mission supportive systems in ED’s Y2K project. This
report is OIG’s first review of the Y2K readiness of one of ED’s mission supportive systems. To
date, OIG has focused its attention on the status of ED’s mission critical systems.

The Project Team conducted an initial assessment and prioritized the individual systems and
devices as mission critical, mission important and mission supportive. During the past year, OIG
has completed Y2K-related work in the areas of student financial assistance and guaranty agencies,
for example. In July 1999, OIG issued Management Information Report “Review of Year 2000
Compliance for Processing, Delivery and Administration of Student Financial Assistance Programs
(Control Number S11-90016).” The purpose of the report was to assess the status of 13 systems
critical to the delivery of student financial assistance. Given their classification as mission
supportive, NCES’s systems have been determined to be lower risk to ED’s mission than the
systems we have previously reported upon.

The Y2K issue arises from the inability of computer systems to store or process dates beyond
December 31, 1999. Computer systems that use a two-digit date field (i.e., “99” for the year 1999)
may not be able to recognize “00” as the year 2000. Without renovation, these systems may fail or
produce erroneous results. ED is currently taking steps to mitigate the risk of the Y2K issue
affecting its computer systems and programs. Y2K is being managed at ED under its Year 2000
Project Management Plan. This plan provides ED with the guidance and organization required for
the Y2K project and is based on the General Accounting Office’s (GAO) “Year 2000 Computing
Crisis: An Assessment Guide,” (GAO/AIMD – 10.1.14).

NCES is an office under the Office of Educational Research and Improvement (OERI). NCES
collects statistics on the condition of education in the United States, analyzes and reports the
meaning and significance of these statistics and assists states, local education agencies, and
postsecondary institutions in improving their statistical systems. NCES supports a wide range of
activities, providing policy-relevant data on issues as diverse as enrollment trends, access of
minorities to postsecondary education, the academic achievement of students, comparisons of U.S.

                                                    13
Review of NCES’s Year 2000 Readiness Plan    Final Report                         ED-OIG/A11-90014


education with systems in other countries and the impact of education on employment and
economic productivity.

Education statistics are used for a variety of purposes from research to policy formation. Congress
uses data to study education issues, to plan federal education programs, to apportion federal funds
among the states, and to serve the needs of constituents. Federal agencies and state and local
officials use NCES statistics to make staffing and financing decisions. Other users of NCES
statistics include the media, educational organizations and the general public.

Some examples of NCES’s work include the following:

• National Assessment of Educational Progress (NAEP) – NAEP, also known as “The Nation’s
  Report Card,” is the only ongoing and nationally representative assessment that measures
  student achievement. The goal of the program is to provide objective information about
  student achievement to policymakers at the Federal, state and local levels, education
  researchers, principals, parents and the general public. It is a Congressionally mandated project
  implemented by NCES. Data for NAEP is currently collected on an annual basis and involves
  volunteer arrangements with the states to administer the assessment.

• Title I Assessment – NCES is responsible for the software program that calculates the
  allocations of Title I funds. NCES uses a formula to arrive at Title I funding decisions. ED
  uses this information to provide funding to the local education agencies.

• The Condition of Education – The National Education Statistics Act of 1994 (20 U.S.C. §9005),
  mandates an annual statistical report from the Commissioner of Education Statistics. The
  Condition of Education is an indicator report, analyzing key data that measures the health of
  education, monitors important developments and shows trends in major aspects of education.
  These issues are important and relevant to today’s national education policy debate.

• Common Core of Data (CCD) - The CCD is the primary database on elementary and secondary
  public education in the United States. The annual CCD is a comprehensive national statistical
  database of all public elementary and secondary schools, and school districts that contains
  comparable data across all states. The CCD is an important resource for policymakers at the
  state and local levels. The CCD collects information on state per pupil expenditures. This
  information is used to calculate the Title I Assessment.

• Integrated Postsecondary Education Data System (IPEDS) - IPEDS is an annual series of
  surveys conducted by NCES that provide a variety of data on the nation’s public and private
  postsecondary institutions. Federal program staff have used IPEDS and student aid survey data
  to address policy issues on financial aid programs. Policymakers at the state and institutional
  level have used IPEDS data for planning purposes. Government commissions have used this
  data to monitor compliance with federal legislation.

• Government Performance and Results Act of 1993 (GPRA) - GPRA was enacted as the
     centerpiece of a statutory framework that Congress put in place to improve federal management
     and provide a greater focus on results. GPRA requires that agencies submit an annual
     performance plan to Congress with established performance indicators. NCES is a key player

                                                  14
Review of NCES’s Year 2000 Readiness Plan     Final Report                          ED-OIG/A11-90014


     in ED’s GPRA process. Data used to measure progress toward achievement of the performance
     indicators come from several sources, including surveys conducted by NCES.



    OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our audit was to determine if NCES has adequately prepared for the Year 2000.
To accomplish our objective, we conducted interviews with key NCES personnel and Project Team
members to obtain an understanding of NCES programs and operations, as well as to determine the
following:

•    Status of NCES Y2K readiness;
•    NCES procedures/plans for the Y2K project;
•    ED’s requirements/plans for the Y2K project; and
•    Y2K status of selected NCES contractors.

We also reviewed five NCES contracts. We selected a judgmental sample of contractors from an
NCES listing of 60 active contracts. The contracts selected for review included those of the highest
dollar volume contractors at NCES. We reviewed general contract information, including award
amount, obligated amount, purpose and Y2K modifications. We also verified that a Y2K clause
was included in the contract file or a subsequent contract modification.

In addition to reviewing the contract files, we identified the two contractors with the largest dollar
volume of contracts at NCES and conducted on-site visits. We prepared a questionnaire for the on-
site visits that enabled us to gain a preliminary understanding of the contractor’s Y2K status.

We reviewed documentation NCES completed as required for the Project Team under ED’s Year
2000 Project Management Plan. This documentation included, but was not limited to, the
following items:

•    Y2K risk assessment
•    Analysis of hardware and software
•    Contingency plans
•    Validation plans
•    Renovation plans
•    Y2K cost estimates
•    Identification of data exchange issues

We performed fieldwork at applicable ED offices and selected NCES contractor offices between
March 1999 and August 1999. We updated certain information in October 1999. We performed
our audit in accordance with government auditing standards applicable to the scope of the review
described above.



                                                   15
Review of NCES’s Year 2000 Readiness Plan     Final Report                          ED-OIG/A11-90014




STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we assessed the management controls applicable to NCES’s Y2K process,
including policies, procedures and practices applicable to the scope of the audit. Our assessment
was performed to determine the level of control risk for determining the nature, extent and timing
of our substantive tests to accomplish the audit objectives.

For the purpose of this report, we assessed the significant controls and classified them into the
following categories (note that our review was limited to NCES and its preparations for Y2K):

• Program Operations
• Compliance with Laws and Regulations

Because of inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in the above areas. However, we
identified that NCES could not demonstrate that it had adequately prepared for Y2K, which is
discussed in the Audit Results section of this report. In response to our draft report, NCES took
corrective actions, which we also noted in the Audit Results section.




                                                   16
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




            APPENDIX A: NCES’s MANAGEMENT
                      COMMENTS




                                                 17
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




                                                 18
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




                                                 19
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




                                                 20
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




                                                 21
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




                                                 22
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




                                                 23
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




                                                 24
Review of NCES’s Year 2000 Readiness Plan   Final Report   ED-OIG/A11-90014




  APPENDIX B: PROJECT TEAM’s RESPONSE




                                                 25
Review of NCES’s Year 2000 Readiness Plan       Final Report                    ED-OIG/A11-90014




                                    FINAL REPORT DISTIRIBUTION SCHEDULE
                                      Audit Control No. ED-OIG/A11-90014


                                                                       No. of
Action Officials                                                       Copies

          Mr. Gary Phillips, Acting Commissioner, NCES                          2
          U.S. Department of Education
          OERI/NCES
          555 New Jersey Avenue, NW
          Washington, DC 20208-5574

          Mr. Robert Davidson, Director, Y2K Project Management Team            2
          400 Maryland Ave, FB-6, Room 4W203
          Washington, DC 20202

NCES
Director, Technology Support Program                                            1

Other ED Offices

Office of Deputy Secretary
        Acting Deputy Secretary                                                 1
        Director – Planning & Evaluation Services                               1

Office of Education Research and Improvement
        Assistant Secretary                                                     1

Office of the General Counsel
        Deputy General Counsel                                                  3

Office of Public Affairs
        Director                                                                1

Office of Inspector General (electronically)
        Inspector General                                                       1
        Deputy Inspector General                                                1
        Assistant Inspector General for Audit                                   1
        Deputy Assistant Inspector General for Audit                            1
        Assistant Inspectors General for Operations                             1 each
        Director, State & Local Advisory & Assistance Programs                  1
        Director, Postsecondary Education Advisory & Assistance Programs        1




                                                     26
